               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-02313-310




    Combined Assessment Program 

             Review of the 

    Amarillo VA Health Care System 

            Amarillo, Texas 





September 13, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Amarillo VA Health Care System
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 HPC            hospice and palliative care
                 MEC            Medical Executive Committee
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                 CAP Review of the Amarillo VA Health Care System, Amarillo, TX



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objective and Scope ..................................................................................................           1

  Objective .................................................................................................................    1

  Scope......................................................................................................................    1


Results and Recommendations ................................................................................ 2

  QM .......................................................................................................................... 2

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections ............................................................. 7

  Coordination of Care – HPC ................................................................................... 8

  Pressure Ulcer Prevention and Management ......................................................... 10

  Nurse Staffing ......................................................................................................... 12


Appendixes
  A. Facility Profile ....................................................................................................      13

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                               14

  C. VISN Director Comments ..................................................................................                  15

  D. Facility Director Comments ...............................................................................                 16

  E. OIG Contact and Staff Acknowledgments .........................................................                            22

  F. Report Distribution .............................................................................................          23

  G. Endnotes ...........................................................................................................       24





VA OIG Office of Healthcare Inspections
                                       CAP Review of the Amarillo VA Health Care System, Amarillo, TX



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care. We
conducted the review the week of July 8, 2013.

Review Results: The review covered six activities. We made no recommendations
in the following activity:

   Medication Management – Controlled Substances Inspections

Recommendations: We made recommendations in the following five activities:
Quality Management: Ensure that senior leaders routinely discuss the facility’s Inpatient
Evaluation Center data and that the discussions are documented. Report results of
completed Focused Professional Practice Evaluations for newly hired independent
practitioners to the Medical Executive Committee. Revise the local observation bed
policy to include all required elements. Establish a policy that defines Special Care
Committee responsibilities. Include all services in the review of electronic health record
quality. Ensure the blood usage and review process includes all required elements.

Environment of Care: Ensure that medications are secured at all times and that only
pharmaceutical items are stored in medication refrigerators.

Coordination of Care – Hospice and Palliative Care: Include an assigned administrative
support person on the Palliative Care Consult Team. Complete interdisciplinary care
plans and Hospice/End of Life Care Plans for all hospice and palliative care inpatients.
Screen all hospice and palliative care inpatients for advance directives upon admission.

Pressure Ulcer Prevention and Management: Accurately document location, stage, risk
scale score, and date pressure ulcer acquired for all patients with pressure ulcers.
Perform and document daily skin inspections and/or daily risk scales for patients at risk
for or with pressure ulcers.     Establish ongoing staff pressure ulcer education
requirements.

Nurse Staffing: Monitor          the      staffing   methodology   that   was    implemented       in
December 2012.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the

Combined Assessment Program review findings and recommendations and 





VA OIG Office of Healthcare Inspections                                                            i
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX


provided acceptable improvement plans. (See Appendixes C and D, pages 15–21, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX



                               Objective and Scope 

Objective
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objective of the CAP review is to
conduct recurring evaluations of selected health care facility operations, focusing on
patient care quality and the EOC.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following six activities:

      QM

      EOC

      Medication Management – CS Inspections

      Coordination of Care – HPC

      Pressure Ulcer Prevention and Management

      Nurse Staffing

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
July 8, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
Amarillo VA Health Care System, Amarillo, Texas, Report No. 09-02264-225,
September 22, 2009).

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
272 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.




VA OIG Office of Healthcare Inspections                                                           1
                                              CAP Review of the Amarillo VA Health Care System, Amarillo, TX



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
 X     There was evidence that Inpatient Evaluation      Twelve months of MEC meeting minutes
       Center data was discussed by senior               reviewed:
       managers.                                          There was no evidence that Inpatient
                                                            Evaluation Center data was discussed.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
 X     FPPEs for newly hired licensed independent        Ten profiles reviewed:
       practitioners complied with selected               None of the FPPE results were reported to
       requirements.                                       the MEC.
 X     Local policy for the use of observation beds      Facility policy reviewed and did not include:
       complied with selected requirements.               How the service or the physician responsible
                                                           for the patient was determined
                                                          That each admission must have a limited
                                                           severity of illness
                                                          Assessment expectations
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.




VA OIG Office of Healthcare Inspections                                                                   2
                                             CAP Review of the Amarillo VA Health Care System, Amarillo, TX


 NC            Areas Reviewed (continued)                                        Findings
  X    The cardiopulmonary resuscitation review          Six months of Special Care Committee meeting
       policy and processes complied with                minutes reviewed:
       requirements for reviews of episodes of care       There was no policy defining the
       where resuscitation was attempted.                   responsibilities of the committee.
                                                          There was no evidence that the committee
                                                            reviewed each code episode.
                                                          There was no evidence that the committee
                                                            collected data that measured the
                                                            performance in responding to resuscitation
                                                            episodes.
 X     There was an EHR quality review committee,        Ten months of EHR Committee meeting minutes
       and the review process complied with              reviewed:
       selected requirements.                             Not all services were included in EHR quality
                                                            reviews.
       The EHR copy and paste function was
       monitored.
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
 X     Use and review of blood/transfusions              Three quarters of Blood Usage Review
       complied with selected requirements.              Committee meeting minutes reviewed:
                                                          The review process did not include the results
                                                           of proficiency testing, of peer reviews, or of
                                                           inspections by government or private (peer)
                                                           entities.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that senior leaders routinely discuss the facility’s Inpatient Evaluation
Center data and ensure the discussions are documented in the minutes of a senior-level
committee.




VA OIG Office of Healthcare Inspections                                                                  3
                                          CAP Review of the Amarillo VA Health Care System, Amarillo, TX


2. We recommended that processes be strengthened to ensure that results of completed
FPPEs for newly hired licensed independent practitioners are reported to the MEC.

3. We recommended that the local observation bed policy be revised to include how the
service or the physician responsible for the patient is determined, that each admission must
have a limited severity of illness, and assessment expectations.

4. We recommended that the facility establish a policy that defines Special Care Committee
responsibilities, including code episode reviews and data collection.

5. We recommended that processes be strengthened to ensure that the review of EHR quality
includes all services.

6. We recommended that processes be strengthened to ensure that the blood usage and
review process includes the results of proficiency testing, of peer reviews, and of inspections by
government or private (peer) entities.




VA OIG Office of Healthcare Inspections                                                               4
                                               CAP Review of the Amarillo VA Health Care System, Amarillo, TX


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected all inpatient units (medical/surgical, CLC, and intensive care), primary and
specialty care outpatient clinics, the emergency department, and SPS. Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
16 employee training and competency files (10 operating room and 6 SPS). The table below
shows the areas reviewed for this topic. The area marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                    
       Environmental safety requirements were met.
       Infection prevention requirements were met.
 X     Medication safety and security requirements        There were unsecured medications in two of
       were met.                                           the eight areas inspected.
                                                          There were food items stored in the
                                                           medication refrigerator in two of the eight
                                                           areas inspected.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
            Areas Reviewed for Hemodialysis
 NA    The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.




VA OIG Office of Healthcare Inspections                                                                    5
                                               CAP Review of the Amarillo VA Health Care System, Amarillo, TX


 NC          Areas Reviewed for Hemodialysis                                   Findings
                          (continued)
 NA    Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.
 NA    Employees received training on bloodborne
       pathogens.
 NA    Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines         
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach         
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines         
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training            
       and competency assessment.
       Operating room employees who performed                  
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional                   
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendation

7. We recommended that processes be strengthened to ensure that medications are secured
at all times and only pharmaceutical items are stored in medication refrigerators and that
compliance be monitored.


VA OIG Office of Healthcare Inspections                                                                    6
                                             CAP Review of the Amarillo VA Health Care System, Amarillo, TX


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. Any items that did not apply to this facility
are marked NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  7
                                              CAP Review of the Amarillo VA Health Care System, Amarillo, TX




Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
  X    A PCCT was in place and had the dedicated         List of staff assigned to the PCCT reviewed:
       staff required.                                    An administrative support person had not
                                                            been assigned to the PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
 NA    The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
 X     An interdisciplinary team care plan was            Two care plans were not completed after the
       completed for HPC inpatients within the             patients were transferred to hospice.
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.




VA OIG Office of Healthcare Inspections                                                                   8
                                             CAP Review of the Amarillo VA Health Care System, Amarillo, TX


 NC            Areas Reviewed (continued)                                   Findings
  X    HPC inpatients were screened for an              Two of the eight EHRs of inpatients able to
       advanced directive upon admission and              communicate did not contain documentation
       according to local policy.                         of advance directive screening upon
                                                          admission.
 X     The facility complied with any additional       Facility policy on end-of-life care planning for
       elements required by VHA or local policy.       inpatient and outpatient hospice care reviewed:
                                                        None of the EHRs contained a Hospice/End
                                                          of Life Care Plan.

Recommendations

8. We recommended that processes be strengthened to ensure that the PCCT includes an
assigned administrative support person.

9. We recommended that processes be strengthened to ensure that interdisciplinary care
plans are completed for all HPC inpatients.

10. We recommended that processes be strengthened to ensure that advance directive
screening is performed upon admission for all HPC inpatients.

11. We recommended that processes be strengthened to ensure that a Hospice/End of Life
Care Plan is completed for all HPC inpatients.




VA OIG Office of Healthcare Inspections                                                                   9
                                             CAP Review of the Amarillo VA Health Care System, Amarillo, TX


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 8 EHRs of patients with pressure ulcers (5 patients with
hospital-acquired pressure ulcers, 2 patients with community-acquired pressure ulcers, and
1 patient with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected one patient room. The table below shows the areas reviewed for this
topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                     Areas Reviewed                                      Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                In seven of the eight EHRs, staff did not
       documenting location, stage, risk scale score,     consistently document the location, stage, risk
       and date acquired.                                 scale score, and/or date acquired.
 X     Required activities were performed for            Four of the eight EHRs did not contain
       patients determined to be at risk for pressure      consistent documentation that staff performed
       ulcers and for patients with pressure ulcers.       daily skin inspections and/or daily risk scales.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                  10
                                             CAP Review of the Amarillo VA Health Care System, Amarillo, TX


 NC            Areas Reviewed (continued)                                    Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
 X     The facility defined requirements for staff       The facility had not developed ongoing staff
       pressure ulcer education, and acute care staff     pressure ulcer education requirements.
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

12. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily skin inspections and/or daily risk scales for patients at risk for or with
pressure ulcers and that compliance be monitored.

14. We recommended that the facility establish ongoing staff pressure ulcer education
requirements and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  11
                                              CAP Review of the Amarillo VA Health Care System, Amarillo, TX


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and mental health).6

We reviewed relevant documents and conversed with key employees. The table below shows
the areas reviewed for this topic. The area marked as NC needed improvement. Any items that
did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                      Findings
  X    The facility completed the required steps to       Expert panels were not convened until
       develop a nurse staffing methodology by the         December 19, 2012.
       deadline.
NA     The unit-based expert panels followed the
       required processes and included all required
       members.
 NA    The facility expert panel followed the required
       processes and included all required members.
 NA    Members of the expert panels completed the
       required training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

15. We recommended that nursing managers monitor the staffing methodology that was
implemented in December 2012.




VA OIG Office of Healthcare Inspections                                                                  12
                                             CAP Review of the Amarillo VA Health Care System, Amarillo, TX
                                                                                               Appendix A


       Facility Profile (Amarillo/504) FY 2013 through May 2013a
Type of Organization                                                             Secondary
Complexity Level                                                                 2-Medium complexity
Affiliated/Non-Affiliated                                                        Affiliated
Total Medical Care Budget in Millions                                            $166.7
Number (through June 2013) of:
    Unique Patients                                                             22,783
    Outpatient Visits                                                           174,324
    Unique Employeesb                                                           1,019
Type and Number of Operating Beds:
    Hospital                                                                    44
    CLC                                                                         120
    Mental Health                                                               NA
Average Daily Census:
    Hospital                                                                    26
    CLC                                                                         114
    Mental Health                                                               NA
Number of Community Based Outpatient Clinics                                     4
Location(s)/Station Number(s)                                                    Lubbock, TX/504BY
                                                                                 Clovis, NM/504BZ
                                                                                 Childress, TX/504GA
                                                                                 Stratford, TX/504HB
VISN Number                                                                      18




a
    All data is for FY 2013 through May 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                 13
                                          CAP Review of the Amarillo VA Health Care System, Amarillo, TX
                                                                                            Appendix B


                          VHA Patient Satisfaction Survey
VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient scores for quarters 3–4 of FY 2012 and quarters 1–2 of FY 2013
and overall outpatient satisfaction scores for FY 2012.

Table 1

                  Inpatient Scores                                  Outpatient Scores
                 FY 2012     FY 2013                                    FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 3–4    Quarters 1–2    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    70.0            70.8            60.5             53.7             56.9             56.8
    VISN        66.7            64.9            51.1             52.5             49.9             53.3
    VHA         65.0            65.5            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures
Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   15.4            11.1             12.6            18.8             24.1             18.8
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         14
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX
                                                                                        Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


       Date:           August 27, 2013

       From:           Director, VA Southwest Health Care Network (10N18)

       Subject:        CAP Review of the Amarillo VA Health Care System,
                       Amarillo, TX

       To:             Director, San Diego Office of Healthcare Inspections (54SD)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the Combined Assessment Program Review of the
          Amarillo VA Health Care System, Amarillo, Texas.

       2. If you have any questions or concerns, please contact Sally Compton,
          Executive Assistant to the Network Director, VISN 18, at
          602-222-2699.




             Susan P. Bowers




VA OIG Office of Healthcare Inspections                                                          15
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX
                                                                                        Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


       Date:           August 26, 2013

       From:           Director, Amarillo VA Health Care System (504/00)

       Subject:        CAP Review of the Amarillo VA Health Care System,
                       Amarillo, TX

       To:             Director, VA Southwest Health Care Network (10N18)

       Thank you for the opportunity to review the draft report of
       recommendations from the OIG CAP conducted at the Amarillo VA Health
       Care System. We have reviewed the report from the site visit and concur
       with the recommendations; corrective action plans with target dates for
       completion are attached.


       Thank you,




VA OIG Office of Healthcare Inspections                                                          16
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that senior leaders routinely discuss the
facility’s Inpatient Evaluation Center data and ensure the discussions are documented
in the minutes of a senior-level committee.

Concur

Target date for completion: December 31, 2013

Facility response:

Amarillo VAHCS leadership will discuss IPEC data once a quarter at the Performance
Improvement Committee (PIC). Minutes of the PIC meeting will include a summary
and/or identified trends of all IPEC components discussed.

Recommendation 2. We recommended that processes be strengthened to ensure that
results of completed FPPEs for newly hired licensed independent practitioners are
reported to the MEC.

Concur

Target date for completion: October 31, 2013

Facility response:

To ensure that processes are strengthened for reporting of results of completed FPPEs
for newly hired licensed independent practitioners to the Medical Executive Committee
(MEC), monthly minutes of MEC will include an individual list of completed FPPEs. A
tracking mechanism has been developed to ensure FPPEs are initiated and completed
for all newly hired physicians. Results of FPPEs as well as the number of FPPEs
completed versus number of newly hired physicians will be reported to Medical
Executive Committee on monthly basis.

Recommendation 3. We recommended that the facility’s observation bed policy be
revised to include how the service or the physician responsible for the patient is
determined, that each admission must have a limited severity of illness, and
assessment expectations.

Concur

Target date for completion: August 15, 2013



VA OIG Office of Healthcare Inspections                                                          17
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX


Facility response:

The revised Medical Center Policy on Observation Admissions includes all appropriate
elements from the VHA Directive 2010-011: Standards for Emergency Departments,
Urgent Care Clinics and Facility Observation Beds. The new Policy was signed
August 8, 2013.

Recommendation 4. We recommended that the facility establish a policy that defines
Special Care Committee responsibilities, including code episode reviews and data
collection.

Concur

Target date for completion: November 30, 2013

Facility response:

The Special Care Committee has revised the minutes to include a standing agenda item
for the review of cardiopulmonary resuscitation events. The minutes will include an
analysis of the aggregated data for all the required review elements, which includes the
screening for clinical issues prior to the event. A new policy which is being developed
will define the responsibilities of the committee; and assigns a cardiac nurse specialist
to collect and review all code episodes. The monthly data results will be reported to the
Special Care Committee.

Recommendation 5. We recommended that processes be strengthened to ensure that
the review of EHR quality includes all services.

Concur

Target date for completion: November 30, 2013

Facility response:

The Chairman of the Record of Care Committee (ROC) will send a memo out to all
Clinical Service Chiefs requiring electronic health record (EHR) point of care (POC)
quality reviews within their service. The POC EHR reviews will be reported to the ROC
committee monthly. The committee will monitor EHR indicators for each clinical service.
Monitoring and analysis of the POC EHR quality reviews will be reflected in the monthly
minutes.

Recommendation 6. We recommended that processes be strengthened to ensure that
the blood usage and review process includes the results of proficiency testing, of peer
reviews, and of inspections by government or private (peer) entities.

Concur

Target date for completion: November 30, 2013


VA OIG Office of Healthcare Inspections                                                          18
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX


Facility response: 


To ensure that blood usage and review process includes the results of proficiency

testing; of peer reviews; and, of inspections by government or private (peer) entities, 

these elements were added to the standing agenda items for the Blood Usage Review

Committee Meeting. 


Recommendation 7. We recommended that processes be strengthened to ensure that

medications are secured at all times and only pharmaceutical items are stored in

medication refrigerators and that compliance be monitored. 


Concur


Target date for completion: November 30, 2013 


Facility response: 


Medication refrigerator audits have been added as a standing audit item to the 

Environment of Care rounds and will be added to the Medication Management 

Committee monthly meeting. Any specific incidents of medication refrigerator issues 

will be addressed with the nurse manager and corrected immediately. 


Recommendation 8. We recommended that processes be strengthened to ensure that

the PCCT includes an assigned administrative support person. 


Concur


Target date for completion: September 16, 2013 


Facility response: 


A dedicated medical service staff person will be assigned 10 hours a week for 

administrative support (0.25 FTEE) for the PCCT program. 


Recommendation 9. We recommended that processes be strengthened to ensure that

interdisciplinary care plans are completed for all HPC inpatients. 


Concur


Target date for completion: April 14, 2014 


Facility response: 


Hospice/Palliative Interdisciplinary care plans are being defined and the SOP will be

completed by September 30, 2013. Monthly monitoring for completion of care plans will 

be compiled by the HPC Coordinator and reported monthly to the Performance 

Improvement Committee.          Monitoring will continue for two quarters to ensure 

compliance. 




VA OIG Office of Healthcare Inspections                                                          19
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX


Recommendation 10. We recommended that processes be strengthened to ensure
that advance directive screening is performed upon admission for all HPC inpatients.

Concur

Target date for completion: April 14, 2014

Facility response:

To strengthen processes to ensure advance directive screening is performed upon
admission or transferred for all HPC inpatients, an Advance Directive consult will be
entered on all patients admitted to HPC. The Hospice Coordinator will review all new
admissions for advanced directives by the next business day. Monitoring for timeliness
of submission of the consult, and completed within 24 hours of admission with a target
of 90% compliance will be reported monthly to the Performance Improvement
Committee and monitoring will continue for two quarters to ensure compliance.

Recommendation 11. We recommended that processes be strengthened to ensure
that a Hospice/End of Life Care Plan is completed for all HPC inpatients.

Concur

Target date for completion: April 14, 2014

Facility response:

To ensure that processes are strengthened to ensure a Hospice/End-of-Life Care Plan
is completed for all HPC inpatients, the Hospice Coordinator will audit all new
admissions for completion of a care plan. The Hospice End of Life Treatment MCM is
being revised which will define the End of Life Care Plan and will replace the ITP.
Monthly monitoring for completion of care plans will be compiled by the HPC
Coordinator and reported monthly to the Performance Improvement Committee.
Monitoring will continue for two quarters to ensure compliance.

Recommendation 12. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: November 30, 2013

Facility response:

In order to ensure acute care staff accurately document location, stage, risk scale score,
and date pressure ulcer is acquired, a Wound Documentation Template is being added
to the skin assessment/reassessment progress note. This template requires authors to


VA OIG Office of Healthcare Inspections                                                          20
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX


address specific wound characteristics as outlined by the VA Directive. Nurse
Managers will monitor compliance and report monthly findings to Quality Management.

Recommendation 13. We recommended that processes be strengthened to ensure
that acute care staff perform and document daily skin inspections and/or daily risk
scales for patients at risk for or with pressure ulcers and that compliance be monitored.

Concur

Target date for completion: November 30, 2013

Facility response:

To ensure that acute care staff perform and document daily skin inspections and/or
daily risk scales for patients at risk or with pressure ulcers, the requirement of physical
assessments and skin assessments have been changed in frequency from daily to
every shift. Nurse Managers will monitor compliance and report monthly findings to
Quality Management.

Recommendation 14. We recommended that the facility establish ongoing staff
pressure ulcer education requirements and that compliance be monitored.

Concur

Target date for completion: November 30, 2013

Facility response:

New pressure ulcer education modules have been developed and inpatient clinical
nursing staff is required to complete the training by November 30, 2013. These
modules will be included in the future as mandatory annual education for inpatient
clinical nursing staff beginning in FY 2014.

Recommendation 15. We recommended that nursing managers monitor the staffing
methodology that was implemented in December 2012.

Concur

Target date for completion: September 30, 2013

Facility response:

As of June 30, 2013, all Unit Based Expert Panels are in place to review staffing
methodology. Recommendations from the panels are presented to the Facility Staffing
Methodology Expert Panel. Minutes and recommendations from this panel are
submitted to the NE/ADPCS on a monthly basis.




VA OIG Office of Healthcare Inspections                                                          21
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Elizabeth Burns, MSSW, Team Leader
Contributors            Josephine Andrion, RN, MHA
                        LaNora Hernandez, RN, MSN
                        Deborah Howard, RN, MSN
                        Sandra Khan, RN, BSN
                        Glen Pickens, RN, MHSM
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Derrick Hudson
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                          22
                                      CAP Review of the Amarillo VA Health Care System, Amarillo, TX
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Southwest Health Care Network (10N18)
Director, Amarillo VA Health Care System (504/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz, Martin Heinrich, Tom Udall
U.S. House of Representatives: Ben R. Lujan, Randy Neugebauer, Mac Thornberry


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                          23
                                               CAP Review of the Amarillo VA Health Care System, Amarillo, TX
                                                                                                Appendix G

                                                   Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       24
                                               CAP Review of the Amarillo VA Health Care System, Amarillo, TX



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                   25
